HHS/OIG, Audit -"Review of Ambulance Charges Claimed By Caritas Norwood Hospital - Fiscal
Years 2002 and 2003,"(A-01-04-00520)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Ambulance Charges Claimed By Caritas Norwood Hospital - Fiscal Years 2002 and 2003," (A-01-04-00520)
December 14, 2004
Complete
Text of Report is available in PDF format (208 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Hospital was generally in compliance with Medicare regulations for claiming ambulance services costs.  However,
we identified internal control weaknesses for completing medical necessity forms and for allocating ambulance costs between
Part A and Part B on the cost reports.  We recommended that the Hospital develop written policies and procedures for
completing medical necessity forms including regular training of physicians and other appropriate individuals on the Medicare
requirements for establishing medical necessity and establish procedures to allocate ambulance costs related to inpatient
transfers to Part A inpatient services.  The Hospital agreed with and has adopted corrective actions for each of our
recommendations.